 Improved Quality Control Practices

             Within the

Benefit Accuracy Measurement System

          Could Save the

Unemployment Insurance Trust Fund

Approximately $400 Million Annually




                       U.S. Department of Labor
                       Office of the Inspector General
                       Report Number 22-03-009-03-315
                       Date Issued: September 30, 2003
                             Table of Contents


Acronyms and Abbreviations.......................……....……...................ii

Executive Summary …...............….....….......................…….............1

Section I--As Designed, BAM Accurately Detected and Reported
Overpayments; However, Improvements Could Be Made.…………..4

Section II--ETA Did Not Use BAM Information to Prevent
Overpayments……………………………….………..…………….....9

Section III--Program Improvements (Best Practices) Could Reduce
Overpayments ...........................………………….....…….............….18

Background ...........................………...............................…..............24

Objectives, Scope, and Methodology ......……………...........….......27

Exhibits

        1. States Visited and Audit Tests Performed...………..............32
        2. ETA’s Comments to the Draft Report……………..……….33




                                                                                       i
               ACRONYMS and ABBREVIATIONS



BAM    Benefit Accuracy Measurement
BPC    Benefit Payment Control
CAP    Corrective Action Plan
CIP    Continuous Improvement Plan
CY     Calendar Year
DC     District of Columbia
DCI    Data Collection Instrument
DOL    Department of Labor
ETA    Employment and Training Administration
FTE    Full Time Equivalent
GAO    General Accounting Office
OIG    Office of Inspector General
OWS    Office of Workforce Security
QC     Quality Control
SWAs   State Workforce Agencies
SQSP   State Quality Service Plan
UI     Unemployment Insurance
UIPL   Unemployment Insurance Program Letter
UTF    Unemployment Trust Fund




                                                ii
                            Executive Summary


In response to its concerns about the accuracy of paid unemployment
insurance (UI) claims, in 1987 the Employment and Training Administration
(ETA) implemented the Benefit Accuracy Measurement (BAM) program to
monitor the accuracy of UI payments made to claimants and statistically
project the amount of claimant overpayments throughout the country. BAM
estimated UI benefit overpayments of $2.5 billion for CY 2001 and $3.7
billion for CY 2002. The OIG audited ETA’s use of BAM data to oversee UI
overpayments. Specifically, we wanted to determine whether:

           •   BAM accurately detected and reported overpayments
           •   ETA used BAM information to prevent overpayments
           •   Program improvements (Best Practices) could reduce
               overpayments

While BAM accurately detected and reported overpayments, ETA did not use BAM
data to prevent overpayments. Using ETA’s BAM overpayment projections and data
mining techniques, we identified a best practice that once implemented, could reduce
UI claimant overpayments by an estimated $428 million annually.

As designed, BAM accurately detected and reported overpayments;
however, improvements could be made. State BAM investigations were
performed with an exceptionally high degree of accuracy (over 99 percent),
and the results were correctly reported to ETA’s national office. The national
office used sound and reliable methods to statistically project the results of
state investigations. This audit validated that BAM results were reliable.
However, state BAM investigators could detect more “unreported earnings”
related overpayments if a 180-day followup process was initiated (section I).

ETA did not use BAM information to prevent overpayments. ETA did
not use BAM information to strengthen and institute effective internal controls
to prevent overpayments throughout the country. ETA’s current system of
controls did not accomplish its intended result of preventing overpayments, as
evidenced by stagnant overpayment rates. We concluded that changes must
be made to policies and procedures that will make overpayment oversight a
top priority (section II).

Program improvements (Best Practices) could reduce overpayments.
Based on our Best Practices analysis of state UI operations, we concluded that
expediting the implementation of New Hire database connectivity at 10 states
and increasing its usage at another 8 states could save the Unemployment
Trust Fund (UTF) an estimated $428 million annually (section III).
This report makes nine recommendations for program improvement that, once
implemented, should heighten awareness of the current overpayment problem
and reduce overpayments by an estimated $428 million annually. The
recommendations are summarized below for each of the three audit
objectives. We recommend the Assistant Secretary for Employment and
Training ensure the Administrator, Office of Workforce Security:

       •   Modify the system used to project overpayments related to
           unreported earnings issues by devising a followup process for paid
           claims and creating a formula for reporting the information learned
           from the followup process.

       •   Make overpayment oversight a top priority by making BAM
           payment accuracy a TIER I measure, including overpayment
           analysis in the State Quality Service Plan, using Unemployment
           Insurance Program Letters to communicate the importance of the
           overpayment problem, using BAM data to perform more
           comparative analyses between states, and requiring Regional BAM
           Monitors to fulfill their program leadership duties.

       •   Expedite the implementation of New Hire database connectivity in
           10 states, and require 8 other states to perform cross match
           procedures (to their states’ New Hire database) at least weekly.

ETA agreed in principle to the report’s findings and recommendations and
emphasized that reducing UI overpayments is an ETA priority, and that ETA believes
it has made significant progress toward creating a system that promotes overpayment
reduction. Specifically, management stated, “We agree with the overarching audit
findings. . . . However, we do not agree with the audit’s estimates of potential
savings. . . . The OIG estimate is substantially higher than the ETA estimate of $139
million maximum potential savings. . . . In the audit report, the OIG made nine
recommendations designed to ‘heighten awareness of the current overpayment
problem and reduce overpayments.’ You will find from our responses (attached) that
these recommendations or the underlying purposes of the recommendations have
largely been addressed.” ETA’s response is included in its entirety as Exhibit 2.

Management actions taken during the course of the audit affirmed ETA’s
commitment to make overpayment reduction a top priority, and based on recently
issued Unemployment Insurance Program Letters (UIPLs) Recommendation 6 is
closed. However, the Agency Response did not fully address its planned actions for
recommendations 1, 2, 3, 4, 5, and 9. These recommendations are unresolved pending
the receipt and review of management’s corrective action plan. Additionally, the
Agency Response to Recommendations 7 and 8 were not sufficiently discussed to
determine whether management agreed to take the suggested action; these
recommendations are also unresolved.




                                                                                 2
In addition, ETA disagreed with OIG concerning the amount of savings the UTF
could accrue once all states are connected to their State Directory of New Hires and
perform a cross match at least weekly; however, ETA agrees that our proposed
recommendation will save the UTF over $100 million annually. The most practical
means to determine the actual savings that accrue from our recommendations is to
monitor the change in Unemployment Insurance overpayment rates estimated by the
Benefit Accuracy Measurement System once the recommendations have been
implemented.




                                                                                3
                                   Section I

 As Designed, BAM Accurately Detected and Reported Overpayments;
               However, Improvements Could Be Made

State BAM investigations were performed with an exceptionally high degree of
accuracy (99 percent), and the results were correctly reported to the national office.
In addition, we found the national office used sound and reliable methods to
statistically project the results of state investigations. However, state BAM
investigators could detect more “unreported earnings” related overpayments if a 180-
day followup process were initiated.

Using statistical sampling protocols, state agencies select between 360 and 480 UI
paid claims annually for examination. Each week, a federally funded state
investigative unit thoroughly reviews assigned cases to determine whether the
payment made to a claimant was accurate. Key information about the case under
review, as well as payment errors are documented (referred to as the coding process),
including the cause of any detected errors. BAM audit results are reported to the
national office. Each year over 20,000 investigations are performed, and the results
of every investigation performed since program inception (1987) is stored and
available in the ETA database located in Washington, DC. The Office of Workforce
Security (OWS) uses BAM data to scientifically project overpayment rates for each
state, and the cumulative result from each state yields a national overpayment
projection.

We randomly selected and tested a total of 389 CY 2001 investigative cases from
eight states. The case files selected were reviewed for both completeness and
accuracy with regard to the previously performed BAM investigation. The
procedures performed in each state were designed to assess the reliability of the data
produced by the BAM units during their investigations.

State BAM Investigations Were Performed Correctly

State BAM investigations were performed with an exceptionally high degree of
accuracy (99 percent), and the results were correctly reported to the national office.
To reach this conclusion, we validated that State BAM Investigative Units complied
with organization, authority, and written procedures called for in the BAM State
Operations Handbook (Employment and Training Handbook No. 395), and
investigations were performed correctly with the results reported to the national
office.

Organization, Authority and Written Procedures. We determined that ETA
Handbook No. 395 requirements related to organization, authority and—with the
exception of New Jersey—written procedures were met in the eight states we visited.
The BAM units in each state were organizationally independent of the activities that



                                                                                  4
had made the initial UI calculations, essential organization and authority requirements
set forth by ETA. Although the State of New Jersey did not have a written
procedures manual, State officials required BAM personnel to follow ETA handbook
requirements.

Accuracy of Calculations. BAM investigations were performed with a high degree
of accuracy. Our sample contained 389 cases with payments totaling $91,802. Case
files contained appropriate data that supported investigator’s results, and these results
were correctly reported on Data Collection Instruments. We reperformed the
calculations of BAM investigators, using only file information previously gathered by
the investigators. Of the 389 CY 2001 BAM investigations reperformed, we
identified 5 errors - 2 overpayments totaling $31 and 3 underpayments totaling $18.
The $31 in overpayments equates to an error rate of .4 percent, or an estimate of $10
million when applied to CY 2001 payments of approximately $30 billion, an amount
that does not materially impact national office projections using BAM data.

State Investigation Results Were Statistically Projected Correctly

The BAM system uses a statistically reliable methodology to project annual
overpayment rates from state investigations. Using judgmentally selected data
fields from the BAM database of CY2001 investigations (also referred to as
the “Frozen Database”), OIG validated definitions, terms, and data values and
found them to be consistent and reliable. In addition, we analyzed the two
major BAM formulas (overpayment ratios and conversion to dollars), and
concluded they were sound and reliable.

More “Unreported Earnings” Related Overpayments Could Be Identified

BAM investigations did not always detect when claimants were drawing benefits
while their earnings exceeded authorized limits, e.g., started another job while
continuing to draw benefits. The current BAM system relies, in large part, on
claimants and former employers to disclose any unreported earnings. Unreported
earnings can be detected through BAM investigator’s contact with known employers,
work search contacts, or third parties. However, unless the claimant volunteers
employment information, overpayments are generally not discovered through BAM
investigations because investigators may not have access to current employer wage
data at the time they perform their reviews. Employer wage information may not be
available for up to 6 months after an employee is hired. Therefore, a BAM
investigator would not know if a claimant had already obtained employment at the
time of the investigation. In addition, the BAM investigator would have no means to
determine if a claimant obtained employment after the investigation was completed.

The reason BAM does not always identify these types of overpayments relates to the
original system design. ETA officials intentionally designed a BAM system to
respond quickly and provide an expedited result from state investigations. When
BAM began in 1987, there was concern state investigations would drag on, and



                                                                                   5
produce untimely and potentially unuseful data. Safeguards were implemented to
require at least 95 percent of all results to be completed and recorded in the national
database within 90 days after a case was assigned. This practice makes it more
difficult for an investigator to detect the type of overpayments identified in the OIG
audit, but this was considered a trade-off for expedited data.

Two audit tests were performed to determine whether the BAM overpayment
projection concerning unreported earnings was understated, and whether a change to
the system design was warranted. The first test involved a random selection of 580
CY 2001 BAM investigations to determine whether BAM’s projection of claimant
overpayments resulting from unreported earnings errors was accurate. The second
test used linear regression to determine whether state BAM projections of unreported
earnings overpayments were potentially understated.

Statistical Sample of 580 BAM Investigations. From our sample of 580
investigations at 6 states (see Exhibit 1), we identified instances where wage
information appeared in the same CY quarters when UI benefits were paid. We were
able to identify these wages because sufficient time had elapsed (6 months or more)
for wage information to be properly captured in state UI systems. All wage matches
were documented and provided to the respective state BAM investigative units to
perform followup validation with employers to verify when wages were earned.
Following the same procedures investigators routinely use, state BAM personnel then
made a determination whether an overpayment had occurred.

We statistically projected overpayments disclosed through audit testing for the six
states sampled. Our projection was made using the 580 randomly selected CY 2001
BAM investigations. We then compared our CY 2001 unreported earnings
overpayment projections with BAM results. BAM projected unreported earnings
overpayments at $92 million in the six states we visited and our statistical projection
was $112 million. The $20 million difference (22 percent) represents an opportunity
to improve the BAM system.

Linear Regression Analysis. To corroborate our opinion that state BAM
investigators could detect more “unreported earnings,” we used the data mining
technique of linear regression analysis. We performed linear regression analysis of
BAM unreported earnings overpayment projections for CY 2001. Our analysis
disclosed that one state, New York, should have had a BAM unreported earnings
overpayment projection of $43 million. However, ETA had projected an
overpayment of only $1 million. Although we did not perform a review of New York
overpayment transactions as in the case of the six states we visited, the variance that
occurred in New York provides additional concern that the BAM projections may be
understated. Although a deviation in one state is generally detected through
regression analysis and would not necessarily be uncommon, the magnitude of this
deviation is significant. Combine this $42 million deviation with the 22 percent
difference between the BAM unreported earning projections and our statistical




                                                                                    6
projections (noted in the paragraph above), and we concluded the BAM estimation
process could be improved.



                                Conclusion

State BAM investigations were performed correctly and BAM statistical projections
are reliable. The CY 2001 $2.5 billion overpayment estimated by BAM is an
accurate projection based on BAM’s current design. However, state BAM
investigators could detect more “unreported earnings” related overpayments if a 180-
day followup process were initiated. In June 2002, the Deputy Secretary of Labor
testified before Congress about the nature and extent of UI overpayments. This
testimony stressed BAM CY 2001 overpayment projections were categorized into
three groups: Detectable and recoverable, which includes overpayments due to
unreported earnings, using Benefit Payment Control (BPC) methods ($1.235 billion);
recoverable but not likely to be detected using BPC ($.566 billion); and non-
recoverable and outside the scope of BPC ($.484 billion). The category of detectable
and recoverable through BPC is a good candidate to target for increased efficiency.
Based on our audit, we believe the $1.235 billion most recently reported to Congress
was understated because, as currently designed, BAM cannot always detect
overpayments related to “unreported earnings.”

Recommendations

We recommend the Assistant Secretary for Employment and Training ensure
the Administrator, OWS, modify the system used to project overpayments.
To accomplish this:

1) Amend ETA Handbook 395, Benefit Accuracy Measurement-State
   Operations, to prescribe a mandatory followup review for state BAM
   investigations to determine whether “unreported earnings,” related
   overpayments occurred. The followup process should match state wage
   information with paid UI benefits and determine whether an overpayment
   (not previously detectable from the BAM investigation) occurred. We
   suggest the review occur 180 days after the week ending date of the
   payment originally investigated, so accurate wage information will be
   available. However, states connected to their New Hire database could
   choose to perform the followup earlier, provided reliable wage
   information was available.

2) Develop specific reporting and oversight procedures for all 180-day and/or
   New Hire database followup reviews. These procedures should address
   all state, regional, and national responsibilities.




                                                                                7
3) Create a new formula for reporting overpayment information. The new
   formula should use existing BAM overpayment projections derived from
   initial investigations plus overpayment information obtained using a
   state’s followup review procedure to validate “unreported earnings.”

Agency Response

We agree conceptually with the recommendation that adding a process for a wage
record or New Hires follow-up cross match as part of BAM investigations would
produce a better estimate of total overpayments. As indicated in the OIG report,
including a wage record cross match was considered during the implementation of the
predecessor to BAM. However, the cross match segment was ultimately not included
in the process out of concern that the cross match would delay completing the
investigations too long.

We propose to pilot test cross matches of BAM cases with wage record and New
Hires data in several states. The pilot would allow us to determine the magnitude by
which estimates would be improved compared with the costs associated with the
change in the process including the additional effort in the investigations, updating
the BAM handbooks and reprogramming the BAM software at both the state and
Federal levels. If the pilot finds that national implementation is cost-beneficial, we
will develop a procedure for incorporating the cross match into the BAM program.
The pilot test is contingent upon the availability of funding and a sufficient number of
states volunteering to participate in the pilot.

We think this effort responds to recommendations one, two and three.

OIG Conclusion

We agree with ETA’s alternative approach to this problem. Management’s
proposed plan-of-action satisfies the intent of the OIG finding and
recommendations. However, pending receipt and review of a corrective
action plan with estimated time frames for completion, these
recommendations are unresolved.




                                                                                   8
                                  Section II

       ETA Did Not Use BAM Information to Prevent Overpayments

Preventing UI overpayments was not a priority under the UI PERFORMS
performance management system. Over a 12-year period (1989-2001), BAM
reported national overpayment rates ran flat at about 8.5 percent. Based on
observations, interviews, and other audit tests performed at ETA’s national
and regional offices, and our review of management controls used in the
ETA’s quality control process, we determined no corrective actions were
taken during this period.

To comply with the Code of Federal Regulations’ requirement to institute
quality control over UI benefit payments, ETA instituted UI PERFORMS, and
BAM is a key element (additional background information is provided on
pages 20-23). Using state investigations to identify and code detected errors,
BAM projections to infer the magnitude of detected problems, and regional
monitoring to authenticate data accuracy, the Federal system to implement the
detection element of quality control is well conceived and accomplishes its
intent. The OIG has determined that although overpayments have been
identified through the detection element of quality control, the prevention
element of this quality control model (UI PERFORMS) is not effective.

Five factors contributed to the fact that for more than 12 years BAM national
overpayments rates ran flat at about 8.5 percent. These factors are listed
below.

   •    State overpayment data were considered a secondary, or Tier II
        performance measure. Therefore, states were not required to achieve
        minimum levels of performance and received little oversight compared
        to Tier I measures;

   •    Overpayment issues are not identified in State Quality Service Plan
        (SQSP) documents;

   •    Unemployment Insurance Program Letters did not address
        overpayments;

   •    State-to-State overpayment comparisons were not performed; and

   •    Regional BAM Monitor responsibilities focused on detection
        (monitoring) and did not address prevention (program leadership).




                                                                                 9
State overpayment data were categorized as Tier II information.

The first major component within UI PERFORMS is the Continuous
Improvement Cycle. The cycle identifies priorities, then collects and monitors
data to measure performance. UIPL 37-99 identifies 72 measures, 10 are UI
PERFORMS Tier I measures and 62 are Tier II. Payment accuracy
(overpayment) information is categorized as Tier II. To illustrate the
difference between the two groups, Tier I measures have an ETA approved
definition, source of data, and an established criteria. Also, all Tier I
measures have floor criteria. This is the lowest acceptable level of
performance a state must accomplish without triggering internal controls such
as a Corrective Action Plan (CAP) and Federal involvement. In contrast, paid
claim accuracy (the only BAM related overpayment Tier II measure) has no
minimum level of performance and no defined criteria.

ETA’s perspective of the importance of timely paid claims is demonstrated in
its Tier I measures. In CY 2001, there were 10 ETA Tier I measures; 7
addressed timeliness issues, and none assessed overpayments. In addition, the
Department’s FY 2001 Government Performance and Results Act goals also
excluded overpayments.

State UI officials feel compelled to address Tier I problems before Tier II
problems are addressed, because this is how they perceive the Department
assesses their performance. UI PERFORMS requires both Federal and state
managers to monitor Tier I data. Significant problems require explanation,
verification, inclusion in the SQSP, and overall attention at both the Federal
and state level. In addition, TIER I problems, if egregious, could result in the
Secretary withholding administrative funds to operate the state’s UI program.
Conversely, errors related to Tier II are considered important, but not until all
Tier I issues are resolved. Management attention given to a Tier I versus Tier
II measure is significant. If, for example, a state could not meet the
designated performance level for Tier I, a CAP must be prepared explaining
how and when the state will achieve the minimum level of acceptable
performance.

In contrast, poor performance within Tier II does not require a CAP unless
performance is considered egregious. ET Handbook No. 336 defines
egregious poor performance as “conspicuously bad performance identified by
an analysis of TIER II measures.” Using a 5-year analysis of about 26,000
overpayment errors segregated by cause code, we identified 94 specific cause
code related errors covering 41 states that were twice the national average.
Regional monitors were asked what they considered egregious performance
relating to overpayments. Monitors did not consider this a decision they could
make, and have never determined a state they monitored to have an



                                                                                    10
overpayment issue that was considered egregious. As a result, none of the
SQSPs we reviewed identified an overpayment issue as egregious.

In summary, paid claim accuracy (overpayments) was designated as a Tier II
measure. When you combine this designation with the fact that GPRA goals
were not established for overpayments, it impacted the level of oversight and
management attention overpayments received.

Overpayment issues are not identified in SQSP documents

All states must submit their SQSPs to their ETA regional offices for review
and approval. Much like a business plan, states identify the issues and
programs where improvement is needed to ensure strong program
performance. Specific improvements are generally identified as CAP and
Continuous Improvement Plan (CIP) action items. These not only identify the
areas to be improved, but also have written objectives with milestones to
achieve improvements. State quality plans must include a CAP if a TIER I
standard was not achieved. In contrast, a CIP is usually reserved for TIER II
measures. However, Federal monitors must negotiate including a CIP for a
TIER II measure into a SQSP. The state makes the final decision whether a
CIP is included.

We reviewed 338 CAP and CIP entries into CY 2001 SQSPs. About 98
percent of all action and improvement plans addressed management concerns
other than overpayments. Regional BAM Monitors indicated they had not
considered negotiating overpayment issues in the SQSP process. They
believed that overpayment issues would be TIER I if ETA wanted them in
these plans. Since overpayment information is TIER II, regions did not
perceive a responsibility to evaluate overpayment issues during the SQSP
review and approval process.

We concluded that overpayment issues were rarely identified in SQSP
documents. Furthermore, the omission of overpayment information has
become institutionalized and its appearance in an SQSP would be considered
an exception.




                                                                                11
Unemployment Insurance Program Letters (UIPL) did not address
overpayments

For the CY periods 1999, 2000 and 2001, ETA issued 107 UIPLs, and with 2
exceptions, overpayment issues were not addressed. UIPL 35-99, Office of
Inspector General Audit of Benefit Payment Control Wage/Benefit Cross
Match and Employers Who Fail to Respond, distributed a copy of the OIG
audit that identified problems with existing cross match procedures and
addressed some undetected overpayments. However, ETA’s only defined
purpose of the UIPL was to distribute copies of the audit report. The
following year UIPL 36-00 was issued encouraging states to use their New
Hire database.

State-to-State overpayment comparisons were not performed

When quality control legislation was first initiated in 1987, states were
required to publish BAM results. This was a method of ensuring
accountability though public and voter awareness. This practice was
discontinued in 1996. Although ETA’s UI PERFORMS annual report gives
information for every state, ETA national office staff does not perform state-
to-state comparisons. In addition, we concluded (based on 23 interviews)
Regional BAM Monitors do not perform state-to-state comparisons. ETA
officials believe differences in state Unemployment Insurance laws makes
state-to-state comparisons ineffective. OIG believes comparisons are
necessary to improve current overpayment prevention efforts.

For example, when we compared states using a best practices approach (see
section III), we concluded efficiencies of over $1 million a day could be
achieved by applying the techniques used by the best states. The only way we
could identify these types of efficiencies was to determine which states were
doing it best by comparing their performance. Moreover, since Tier II
measures such as paid claim accuracy do not have established criteria, we
concluded state-to-state comparisons were the only viable method to measure
performance.

Regional BAM Monitor responsibilities focused on detection (monitoring)
and did not address prevention (program leadership)

ET Handbook No. 396, Unemployment Insurance Benefit Accuracy
Measurement Quality Control Monitoring, defines three distinct regional
responsibilities in Quality Control as program leadership, technical support,
and monitoring. Based on our interviews with 23 current and former Regional
BAM Monitors, we concluded responsibilities such as reviewing quality
control data to identify factors adversely affecting payments, recommending
program improvement studies, and performing data extraction and analysis to
identify areas of problems within states, were not aspects of monitors’ duties.



                                                                                  12
Using a 5-year analysis of overpayment errors, we identified 94 instances
where a state had overpayment rates (by cause code) that were twice the
national average. We discussed our analysis with Regional BAM Monitors in
all 10 regional offices. Monitors were not aware of these trends in
overpayments, and considered the type analysis we performed as outside the
scope of their duties. In general, monitors did not use UI PERFORMS data to
analyze their states, did not possess retrieval skills necessary to extract BAM
data from the national office database, and had not performed program or
process improvement studies related to overpayments at the states they
monitored. In summary, monitors do not perform the type of program
leadership duties addressed in the ET Handbook.

We then analyzed and documented the level of human resource expenditure
(through discussions, reconstruction of site visits, etc.) to determine how
much of a workday monitors dedicated to BAM duties. We concluded that
although about 20 monitors work in ETA regions, their total Full Time
Equivalent (FTE) working BAM issues was approximately 4 FTE, or about 20
percent of their time. Their current duties do not include analysis to prevent
overpayments. Monitors’ duties were primarily BAM case review and
validating the accuracy of investigators’ coding for completed cases. We
concluded Regional BAM Monitors are not involved in preventing
overpayments throughout the country.

                                   Conclusion

ETA does not have effective quality controls in place to prevent overpayments. Even
though controls established within UI PERFORMS were designed to monitor and
improve performance throughout the UI Federal-State system, these controls did not
accomplish their intended result. Specifically, control triggers designed to correct
poor performance, such as CAPs, did not work because overpayment data was
designated Tier II, thereby excluding overpayment issues from the control triggers.
Poor performance was not identified due to a lack of state-to-state comparisons.
National policies (UIPLs) addressing overpayments were not established.
Correspondingly, ETA Regional BAM Monitors’ duties were not focused on
prevention. As a result of the aforementioned problems, states did not make
overpayments a top priority as evidenced by SQSPs that did not address ways to
monitor and prevent overpayments.

Through data mining activities of BAM information, and examination of existing
management controls, we concluded best practices exist that can reduce
overpayments. A best practice to expedite implementation of the state New Hire
database is discussed in detail at Section III to this report. It is our opinion other best
practices will surface once improved quality control practices are implemented.




                                                                                     13
Recommendations

The Assistant Secretary for Employment and Training should ensure the
Administrator, OWS, require national office and regional BAM personnel
afford overpayment oversight a top priority. To accomplish this:

4) Change ETA policy to make BAM overpayment information a TIER I
   measure in ETA’s UI PERFORMS performance management system.

5) Include BAM overpayment analysis in the annual SQSP process.
   Monitors should negotiate overpayment issues with states to ensure these
   problems are addressed in SQSPs.

6) Utilize Unemployment Insurance Program Letters to communicate to the
   state partners the significance of the policy shift to overpayment
   prevention, and routinely make them aware of ongoing DOL initiatives to
   identify and prevent overpayments.

7) Utilize the BAM historical database to perform comparative (state-to-
   state) analyses, both at the national and regional levels.

8) Require Regional BAM Monitors to fulfill their program leadership duties
   and responsibilities. Specifically, require monitors to analyze BAM data
   for the states they monitor and identify trends of overpayments; work with
   assigned states to investigate overpayments identified by the national
   office; and, lead or facilitate process improvement initiatives designed to
   prevent overpayments in their assigned states.


Agency Response

The purpose of recommendations four through eight is to “make overpayment
oversight a top priority.” ETA agrees that overpayment oversight should be a top
priority and has made significant efforts in this area. However, we propose to address
overpayment oversight in a slightly different way than the methods suggested in the
audit report.

Differences among states’ laws, regulations, and policies regarding claimant
eligibility influence the potential for error. States with strict and complex laws and
policies tend to have higher improper payments. Therefore, comparing states’ BAM
overpayment rates can be misleading and the Department has consistently cautioned
against making state-to-state overpayment rate comparisons.

However, during 2002, ETA used BAM data to develop a GPRA overpayment
detection measure. The GPRA measure uses BAM data to compute an “operational
overpayment rate” that includes the recoverable overpayments that states are most



                                                                                 14
likely to detect through state operations. The operational overpayment rate is more
comparable among states than the BAM annual overpayment rate because it excludes
some of the elements that have the greatest variability among states (such as work
search and employment service registration requirements). The GPRA measure
compares the operational overpayment rate data with the amount of overpayments
actually established for recovery to give a more comprehensive picture of states’
efforts to prevent and detect overpayments. The GPRA overpayment detection
measure is discussed in detail in UIPL 15-03.

As part of an overall review of the UI performance management system, discussions
are underway to include the GPRA overpayment detection measure as a “core
measure” under UI PERFORMS. (UI PERFORMS is undergoing revision. The term
“core measure” has been recommended as a substitute for the term “Tier 1.” Core
measures will be equivalent to Tier 1 measures.) As a core measure, the overpayment
detection measure will be subject to the same level of oversight as current Tier 1
measures, including being subject to corrective action for unacceptable performance.

GPRA measures, including the overpayment detection measure, are addressed in the
SQSP process. State and regional office staff negotiate the substance of the SQSP,
including the performance of the GPRA measures which are Federal Emphasis areas.
(See UIPL 28-03.) We acknowledge that regional office staff do not conduct the
analyses recommended in the BAM handbook. We think that it is more efficient for
national office staff to continue to provide states and regional offices with analyses
about overpayment rates and causes than for the regional offices to engage in
overpayment analyses at this level. The regional offices will provide overpayment
oversight through the SQSP process.

We think the purpose of recommendations four through eight—to make overpayment
oversight a top priority—has been accomplished through the efforts described above.

OIG Conclusion

As management stated, recommendations 4-8 focus on making overpayment
oversight a top priority. Moreover, management’s actions such as using BAM data to
develop a GPRA overpayment detection measure clearly illustrate ETA’s intent to
make overpayments a priority. However, these recommendations were designed to
address the effectiveness of ETA’s established quality control process.

The report states “ETA does not have effective quality controls in place to prevent
overpayments.” A detailed analysis of the Agency Response to recommendations 4
through 8 follows.

Recommendation 4. Management’s proposed plan-of-action (to include
GPRA overpayment detection as a Tier 1 measure) satisfies the intent of the
OIG recommendation. However, pending receipt and review of a corrective




                                                                                15
action plan with estimated time frames for completion, this recommendation
is unresolved.

Recommendation 5. ETA’s GPRA overpayment detection measure will
impact states SQSP process. Pending receipt of a corrective action plan that
defines the actions Regional Monitors will take to incorporate BAM
overpayment analysis and subsequent issues into the annual SQSP process,
this recommendation is unresolved.

Recommendation 6. ETA issued several UIPLs addressing overpayment
issues in FY 2003. Using UIPLs, ETA communicated to its state partners
ongoing DOL initiatives to address overpayment issues; therefore, this
recommendation is closed.

Recommendation 7. OIG does not consider the Agency Response to fully
address the recommended action. The response indicates claimant eligibility
from state-to-state is difficult to compare because state laws, regulations, and
policies often differ. We agree state-to-state comparisons are challenging;
however, examining similar overpayment causes among states can produce
useful comparisons. Moreover, ETA established a GPRA measure using
BAM data to compute an “operational overpayment rate” that includes the
recoverable overpayments that states are most likely to detect through state
operations. While acknowledging the difficulty of management’s task, we are
convinced that state-to-state comparisons represent a best practice technique
to prevent overpayments. This recommendation is unresolved.

Recommendation 8. OIG does not consider the Agency Response to fully
address the recommended action. ETA agrees with OIG’s finding that
regional office staff does not conduct the analyses recommended in the BAM
handbook. ETA thinks that it is more efficient for national office staff to
continue to provide states and regional offices with analyses about
overpayment rates and causes than for the regional offices to engage in
overpayment analyses at their level. Although BAM overpayment data were
available to analyze, we could not identify any instances where Regional
Monitors worked with states to identify problems and prevent future
occurrences. Therefore, while ETA’s response explains the efficiency of its
actions, it does not take into account the effectiveness or lack thereof. And as
our report points out, the UI overpayment rate has remained relatively
stagnant over the past 12 years.

Overpayment information is published each year in the Annual UI
PERFORMS report, but the overpayment rate does not improve. ETA
guidelines require active program leadership duties from its Regional BAM
Monitors. OIG continues to believe that the ETA Regional BAM Monitors
understand the best and worst practices within all the different states they
monitor. Skilled program leadership duties have the potential to reduce or



                                                                                   16
prevent overpayments. Although ETA can execute part of the analysis at the
National level, Regional BAM Monitors are the only resource that can
effectively promote and oversee overpayment prevention. This
recommendation is unresolved pending receipt of an action plan with
approved milestones that describes how ETA will accomplish the
recommended action.




                                                                             17
                                  Section III

 Program Improvements (Best Practices) Could Reduce Overpayments


Expediting the implementation of New Hire database connectivity and developing a
more active usage of a cross match between the New Hire database and benefits paid
could save the UTF $428 million annually. We performed a detailed Best Practices
study of UI operations in six states to determine whether some states had fewer
overpayments than other states and determine why.

The United States General Accounting Office (GAO) defines best practices as the
processes, practices, and systems identified in organizations that performed
exceptionally well and are widely recognized as improving that organization’s
performance and efficiency in specific areas. Successfully identifying and applying
best practices can reduce an agency’s expenses and improve organizational
efficiency.

Our analysis of 580 BAM investigations at 6 states disclosed instances where
claimants continued to receive unauthorized benefits after they obtained employment.
Our statistical projection of CY 2001 overpayments was $112 million for the six
states, but the overpayments for each state varied widely—ranging from none to $76
million. We analyzed the business practices that were related to each state’s
connectivity to their respective State Directory of New Hires (hereafter referred to as
the New Hire database). This analysis disclosed three distinct business practices
(attributes) that impacted overpayment projections: not connected to the New Hire
database; connected and moderately performed the cross match; and connected and
actively performed the cross match one or more times per week.

Our sample of six states contained examples of all three business practices. Michigan
was not connected to its New Hire database and their overpayment projection was
$76 million (shown in red below). Tennessee and Missouri were connected and
moderately performed the cross match. The combined overpayment projection for
these two states totaled $31 million (shown in yellow below). Oklahoma, Ohio, and
Washington actively performed the cross match and their combined overpayments
were projected at $5 million (shown in green below). The following chart illustrates
the distribution of overpayments we projected in CY 2001 for the six states in our
sample. These projections represent overpayments that occur when a claimant’s
earnings exceed state established limits but they continue to draw unauthorized
benefits. The red bar contains overpayments for one state, the yellow bar for two
states, and the green bar for three states.




                                                                                 18
    80
    70
    60
                                                         No New Hire
    50                                                   Connectivity
    40                                                   Moderate Usage
    30
                                                         Highly Active
    20
                                                         Usage
    10
     0
             Overpayments in Millions


After averaging the results and weighting each state based on UI benefit
payment volume, we concluded a state that does not have connectivity to their
New Hire database could have 25 times more overpayments resulting from
claimants receiving unauthorized benefits (when the claimant was already
employed), than a state using a highly active New Hire cross match process.
In addition to Michigan, nine
other states were not connected
to their New Hire database as of
February 2003. We estimate the
UTF could save about $343
million a year based on CY2001
data, if these 10 states were
connected to their respective
New Hire database and
demonstrated a highly active
cross match process.

Our best practices review also
disclosed some states are connected to their New Hire database, but do not
frequently perform a cross match to their benefit payments. The combined
overpayments in Tennessee and Missouri were projected to be $31 million in
CY 2001. As of February 2003,
Tennessee had changed to a highly
active cross match process.
However, Missouri and seven other
states continue to reflect the same
attribute of a moderate New Hire
cross match process. If all eight




                                                                                19
states coded in yellow on the map achieved a highly active cross match
process using their New Hire database, we estimate the UI Trust Fund could
save $85 million a year.

We did not visit enough states to definitively explain why some states are not
connected to their New Hire database, while others actively performed a cross
match to their database one or more times per week. However, we were able
to discern that the cost necessary to achieve the cross match is minimal
because the database already resides within each state. If ETA can facilitate
an expedited implementation of New Hire database connectivity throughout
the country, these actions could save the UTF an estimated $428 million
annually.

The Intent of BAM--Overpayment Prevention versus Collection

We believe the best practice discussed in this audit is an example of the
regulatory intent behind authorizing and funding BAM— to identify errors in
claims, analyze causes, and support the initiation of corrective action. This
best practice focuses on overpayment prevention. Expedited implementation
of New Hire cross match procedures could impact the financial health of the
UTF for two reasons. Specifically, better New Hire connectivity and usage
will prevent some overpayments from occurring, and overpayment recovery
rates should increase.

Overpayment Prevention. The most significant financial impact occurs
through prevention. An estimated $428 million in overpayments could be
eliminated each year if all states implement highly active cross match
procedures to their New Hire database. Specifically, New Hire cross match
can detect overpayments early. If, for example, this cross match detected an
overpayment after the claimant had received four weekly checks, the detection
action has the potential to prevent improper payments for up to 22 more
weeks.

Statistics to separate traditional versus New Hire cross match accounts
receivables were kept for the first time in CY 2002 by DOL. States with a
highly active cross match process established receivables that were 60 percent
smaller than receivables established via traditional cross match methods. For
example, Massachusetts’ average accounts receivable using traditional cross
match methods was $3,283 per person. Conversely, Massachusetts’ average
receivable using New Hire was $586. The difference between the two
methods represents prevention. In the case of Massachusetts, the $2,697
difference per claimant (traditional versus New Hire) represents potential
overpayments that were not disbursed from the UTF.

Overpayment Recovery Rates (Collection). Our suggested best practice
will also impact the UTF because overpayments detected through a New Hire



                                                                                 20
cross match have a better chance of collection. Traditional cross match
detections lead to accounts receivables 2.5 times larger than a New Hire cross
match detection because the overpayments are caught much quicker using the
New Hire cross match. The fact that the amount owed is smaller and
identified sooner under the New Hire process makes collection more probable.
Consequently, expedited implementation of New Hire cross match will
strengthen the solvency of the Trust Fund. In CY 2001, accounts receivables
totaled $653 million for overpayments detected by the states. The collection
rate was 57 percent. These collections were deposited back into the fund. To
illustrate the impact on a state UTF, we offer the following visual display of
two claimants drawing up to $1,000 each of improper benefit payments.
Claimant X overpayment was detected through traditional cross match
procedures and Claimant Y overpayment was detected through New Hire
cross match. Using the New Hire cross match is more than twice as efficient
than using the traditional cross match ($172 versus $430).

     Traditional Cross Match                      New Hire Cross Match
        X to Receive                                Y to Receive
             $1,000                                      $1,000




In this illustration, the UTF benefited by preventing the overpayment. The
difference between the $1,000 and $400 accounts receivables correlates to the
2.5 to 1 ratio between a traditional cross match receivable and a New Hire
cross match receivable, a difference that represents the value of prevention.
While we used a 57 percent collection rate in the example, we believe that the
collection rate for accounts receivable would also increase because the


                                                                                 21
amounts of overpayments would be smaller and detected much earlier,
making collection more likely.

                                 Conclusion

Highly active cross match procedures using a state New Hire database is a Best
Practice that can make a tremendous difference to the solvency of state UTFs. In
2002 fund solvency has reached a low point. Congress approved the distribution of
Reed Act funds totaling $8 billion to help state Trust Funds maintain their solvency.
However, Congress, the President (through his Management Agenda), and senior
leadership at DOL expect every element of “good stewardship” to be constantly
demonstrated to protect the solvency of the Fund. By expediting the implementation
of New Hire cross match procedures, and aggressively requiring a highly active cross
match, we estimate the UI Trust Fund can save over $1 million a day by preventing
overpayments.

ETA personnel examined their CY 2002 account receivables for New Hire versus
tradition cross match detection, and concluded optimum use of New Hire cross match
could save the UTF between $55 and $139 million annually. Although we believe
significantly more savings can be realized, both OIG and ETA recognize the
importance of New Hire cross match procedures.

Recommendations

We recommend that the Assistant Secretary for Employment and Training
ensure the Administrator, OWS:

9) Develop a process improvement initiative to implement New Hire
   database connectivity in the 10 states not currently connected and ensure
   all 50 states, the District of Columbia, and Puerto Rico perform cross
   match procedures at least weekly. The process improvement initiative
   should be modeled after the CAP requirements set forth in ET Handbook
   363, except the CAP should describe a federal initiative rather than a state
   initiative.

Agency Response

We generally agree that increased use of New Hires information has the potential to
produce savings for the Unemployment Trust Fund (UTF) and have promoted state
use of New Hires data. This year, ETA provided funding to 26 states to connect to
state New Hires databases or enhance existing New Hires cross match systems. In
addition, we have promoted the use of New Hires data through workshops at the
National Integrity Conference held in April. ETA will continue to encourage the use
of New Hires data to reduce overpayments; however, rather than requiring specific
state practices such as the use of New Hires data, we intend to set a performance goal
for states with respect to overpayment prevention/detection and require states to



                                                                                  22
determine which specific procedures they use to achieve the goal. We believe that all
will use New Hires data because it is effective.

In addition, we think that access to the National Directory of New Hires would be a
particularly beneficial tool for producing savings to the UTF and will continue to seek
ways to give states that access.

OIG Conclusion

OIG considers the Agency Response to have addressed the intent of our
recommended action. We acknowledge ETA’s recognition that the State
Directory of New Hires cross match process could reduce overpayments, and
their efforts to assist states in funding improved connectivity. The OIG
recommendation hoped to achieve a formalized process to monitor states not
connected to their State Directory of New Hires because, as the finding points
out, unconnected states cost the UTF millions of dollars. Rather than require
specific state practices such as the use of New Hires data, ETA intends to set a
performance goal for states with respect to overpayment prevention/detection
and require states to determine which specific procedures they use to achieve
the goal.

These actions generally meet the intent of the OIG recommendation; however,
it is important to formalize these actions into a process improvement initiative
or corrective action plan. In either instance, the ultimate goal should be to aid
and assist those states not connected to their State Directory of New Hires.
We accept management’s alternative corrective action stated in the Agency
Response provided management monitors all states not currently connected.
This recommendation is unresolved pending receipt of ETA’s corrective
action plan with time frames to start and complete a process improvement
initiative.




                                                                                    23
                                Background


The Employment and Training Administration (ETA) is required by the Code
of Federal Regulations to implement a quality control program as a major tool
to assess the accuracy of paid UI claims, and use this information to support
the initiation of corrective actions to prevent future overpayments. ETA
established the BAM system for this purpose. ETA personnel randomly select
about 20,000 paid claims throughout the country each year and assign these
cases to State BAM investigators who verify pertinent claim information and
recompute payments made to claimants. When a recomputed payment
identifies instances where a claimant was inaccurately paid, investigators are
required to code the reason for the overpayment on a Data Collection
Instrument and forward the results to ETA’s National Office. State BAM
results are then used to statistically project the accuracy of UI payments for
each state and for the nation.

Within DOL, overpayments in the UI program have continued to be a
significant concern. As part of our audit of DOL FY 2001 financial
statements, the BAM overpayment projection of $2.5 billion was addressed.
In addition, the audit identified that overpayment rates projected by BAM
have remained relatively flat at approximately 8.5 percent over the past 12
years. BAM is ETA’s only program designed to measure UI overpayments
and provide management with key information about the nature of the
overpayments to help prevent their reoccurrence.

The President’s Management Agenda (PMA) established a clear Presidential
policy to combat the fraudulent and unauthorized disbursement of government
funds (also referred to as overpayments). The Improper Payments
Information Act of 2002 requires agency identification of programs and
activities that may be susceptible to significant improper payments, and
requires agencies to submit estimates of their improper payments to OMB by
March 31st each year. Agencies that estimate improper payments totaling over
$10 million are also required to discuss their measures to correct the problem.
ETA’s UI program estimated overpayments to be $2.5 billion in CY 2001 and
just under $4 billion in CY 2002. Accordingly, the President’s Management
Agenda and Improper Payments Information Act of 2002 apply to the UI
program. Therefore, ETA needs accurate BAM data to comply with the
President’s Management Agenda to combat fraudulent and unauthorized
disbursement of government funds within the UI program.

The estimated overpayment amounts are provided by the Department’s
Benefit Accuracy Measurement System, also referred to as BAM. The system
was established under 20 CFR 602.1 in 1987 with the intent of measuring the
accuracy of paid UI claims, and using this valuable information to decrease



                                                                                  24
such overpayments in the future. BAM uses an elaborate measurement
process involving: 50 states, DC, and Puerto Rico; ETA regions; and ETA’s
national office in Washington, DC. Paid claims are randomly selected weekly
by each state. The week ending date of the selected payment is referred to as
a key week, because results from the selected claims are used in statistical
projections. States then assign each case to a BAM investigator and each
payment receives an independent determination to authenticate the accuracy
of the paid claim. Investigation results are recorded on coding sheets for entry
into the state database and transmission to the national office. The national
office uses this data to statistically project overpayment rates for each state
and nationally. ETA Handbook 395, Unemployment Insurance Benefit
Accuracy Measurement State Operations, is the principal criteria each state
uses to perform BAM investigations.

ETA has spent an estimated $500 million on its BAM program since its
implementation in 1987. In addition to funding national and regional level
operations, the program also pays for approximately six staff per state to
manage and perform investigations. Currently, there are about 20,000
investigations performed each year throughout the country, and these
investigations are the basis for statistically projecting UI overpayments.

UI PERFORMS is ETA’s continuous improvement process (quality control)
of which BAM is a measurement component. Using scientific estimating
techniques, BAM can provide managers throughout the Federal-State UI
program partnership critical information about overpayment trends.

Title 20 CFR 602.1 directs the Unemployment Insurance (UI) system to implement a
Quality Control (QC) program. The law states “QC will be a major tool to assess the
timeliness and accuracy of State administration of the UI program. It is designed to
identify errors in claims processes . . . analyze causes, and support the initiation of
corrective action.”

DOL initiatives to monitor UI benefit payment quality and accuracy began in
1979 when the National Commission on Unemployment Compensation
studied the accuracy of paid benefits in six metropolitan cities. The study
validated the need to monitor payment accuracy, and in 1981, the Department
initiated the Random Audit Program. In 1987, BAM was implemented, and
became a component of the Department’s overall Quality Control program
with the intent to use BAM data to learn from past problems and support
policies to reduce future erroneous payments.

In August 1995, ETA issued Unemployment Insurance Policy letter (UIPL)
No. 41-95 establishing UI PERFORMS as the UI program’s performance
management system, a system of controls and processes designed to promote
continuous improvement (quality) throughout the UI program. UI




                                                                                   25
PERFORMS is a comprehensive management performance system based on
the following:

   •   A significantly improved data collection infrastructure that provides
       more management information more frequently;

   •   Performance measures that include national core criterion measures
       (Tier I) and a menu of non-criterion measures (Tier II) for State
       Workforce Agencies (SWAs) to utilize in measuring and improving
       their program performance;

   •   A dynamic planning process that is state focused; and

   •   A goal of continuous improvement with shared responsibility by both
       SWAs and Federal partners.

The four (4) major components of UI PERFORMS designed to improve performance
are:

1. The Continuous Improvement Cycle - Commonly known as the “Plan-Do-
Check-Act” cycle. It incorporates a strategic planning process of identifying
priorities, collecting and monitoring data to measure performance, and identifying
areas for improvement.

2. The Performance Measurement System - The system is the source of most
performance data. The two components providing information on claimant
overpayments are BPC and BAM. Overpayment recovery is the primary
responsibility of any BPC activity, and a secondary outcome is prevention of
overpayments through deterrence. BAM is a diagnostic tool used to identify payment
errors, and measure the effect of previously initiated corrective actions. ET
Handbook 395 states “The Unemployment Insurance BAM System is a diagnostic
tool for the use of Federal and SWA staff in identifying errors and their causes and in
correcting and tracking solutions to these problems. On the basis of the errors
identified and information gathered, States will be able to develop plans and
implement corrective actions. The four major objectives of BAM are:

   •   Assess the impact of State and Federal laws and requirements on the system’s
       accuracy and integrity.

   •   Achieve improvements in program accuracy and integrity.

   •   Encourage more efficient administration.

   •   Improve program quality and solvency through error reduction from both paid
       and denied claims.”



                                                                                 26
3. The Planning Process - UI PERFORMS emphasizes joint responsibility between
SWAs and ETA for setting priorities and responding to performance information both
annually and on an ongoing basis. The relationship between the SWAs and ETA will
include the following shared responsibilities:
    • Tracking and analyzing performance data;
    • Identifying Federal and priorities;
    • Developing planning directions (e.g., SQSP);
    • Negotiating (e.g., a CIP) to determine improvement levels; and
    • Developing and implementing strategies for continuous improvement
       (e.g., CAP).

4. The SQSP - A restructured plan of service is at the heart of the UI PERFORMS
continuous improvement cycle. The State Plan is intended to be a dynamic document
SWAs can utilize as a management tool - much like a business plan - not only to
ensure strong program performance, but also to guide key management decisions,
such as where to focus resources. It should focus the SWA’s efforts to ensure well-
balanced performance across the range of UI activities. The State Plan also is
designed to be flexible to accommodate, among other things, multi-year planning and
significant changes in circumstances during the planning cycle. Although it will be
developed in cooperation with the Federal partner, the State Plan is the SWAs focus.
The Federal role in the process is designed to be constructive and supportive.

New Hire Data System. The Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 requires a State Directory of New Hires, also referred to
as the New Hire Data System. Employers are required to report all new hires within
20 days. Each state maintains a database with new hire employment information for
the purpose of locating noncustodial parents who owe child support payments. The
database is the property of the state, and may be used for other purposes such as
verifying employment information. Conversely, the Social Security Administration
maintains the National Database of New Hires with information from all states.
However, access to this database is limited, and it is not currently available nation-
wide to authenticate unreported earnings problems.

                    Objectives, Scope, and Methodology

In response to concerns about continued overpayment problems in the UI program,
the OIG audited the Department’s oversight role regarding UI benefit overpayments.
This is one of two ongoing OIG audits examining overpayment issues. In addition to
the BAM audit, the Chicago Regional Inspector General’s Office is following up on
previous audit work related to Benefit Payment Control Wage/Benefit Cross Match
and exploring the potential cost efficiencies of states using the National New Hire
database maintained by the Social Security Administration.

This audit report’s focus is on ETA’s BAM system, which was developed as a
management tool to estimate payment accuracy, and in turn identifies overpayments.
Our audit objective was to evaluate ETA’s oversight role regarding UI overpayments


                                                                                 27
by using BAM program data. To accomplish this objective, we attempted to answer
the following questions:

       Did BAM accurately detect and report overpayments?

       Did ETA use BAM information to prevent overpayments?

       Can program improvements (Best Practices) reduce overpayments?

BAM Accuracy to Detect and Report Overpayments

Overpayment detection and reporting required us to examine State BAM
Investigations to determine whether entitlement calculations made by investigators
were correct, and whether these results were reported accurately to the national office.
We randomly selected 400 CY 2001 BAM investigations from a universe of over
20,000 cases and performed recomputations using ETA Handbook No. 395,
Unemployment Insurance Benefit Accuracy Measurement State Operations. Eleven
cases were omitted from review because the key week did not start in calendar 2001,
leaving 389 cases in the sample. Recomputations were performed at 8 states (see
exhibit 1) with a random selection of 50 cases per state. These 8 states were
judgmentally selected using a 5-year analysis of overpayment errors that occurred at
all 50 states, the District of Columbia, and Puerto Rico. The analysis arrayed all 52
entities based on BAM overpayment errors. From this analysis, 3 of the 13 states
considered to have the least reported errors (defined as a state in the top 25 percent)
and 5 of the 13 states with the most errors (defined as a state in the bottom 25
percent) were selected. Another judgmental consideration was our intention to select
states covering as many ETA regions as possible, and the eight states represent five of
the six different regions.

The principal basis for our assessment of the reliability of BAM data was each state’s
compliance with ET Handbook No. 395: Unemployment Insurance Benefit Accuracy
Measurement State Operations. The portions of the Handbook pertaining to BAM
methodology, collectively termed Required Procedures, focus on the organization,
authority and written procedures of the BAM units. Additionally, the Handbook
addresses the processing of BAM data, record keeping and specific investigative
procedures. In each state, we determined whether the functions carried out by BAM
investigators were inclusive of the Required Procedures by examining state
procedures manuals and other guidelines and by our review of a sample of case files.
The organizational structure in each SWA was assessed through the use of
observation and inquiry. We reviewed organizational charts, job descriptions and
conducted interviews with key state and BAM personnel in order to make a
determination about the organizational integrity of the SWAs as they related to the
BAM units. The primary consideration of this assessment was whether or not the
BAM units were organizationally independent of all units subject to their evaluations.




                                                                                 28
Our reperformance of BAM investigations included the determination of whether the
data were accurate and if it had been reported correctly to DOL. For the
reperformance of the calculations, we first reviewed the calculation formulas used by
the BAM investigators. This review was designed to assess the calculations’
adequacy and completeness in accordance with Federal regulations, as well as the
Unemployment compensation laws of each state. Once a determination was made
about the formulaic adequacy and completeness of the calculations, each case file was
reviewed in order to ensure that the data necessary and appropriate to conduct the
investigation were included in the files. Following our determination of the adequacy
of the information included in the case files, we reperformed the entitlement
calculations, compared them to the original calculations made by the BAM
investigator and investigated any differences noted. The determination that data were
reported correctly was accomplished by comparing the individual amounts calculated
by the BAM investigator on the Data Collection Instrument to the individual amounts
per a database of reported values maintained by DOL.

BAM overpayment projections made by the national office were reviewed. We
examined and tested the BAM mathematical formulas used by ETA to project
overpayments. Using selected data fields from the 2001 Frozen BAM Database,
definitions, terms, and data values were validated. In addition, we authenticated the
reliability of the BAM formula to ensure statistical projections worked as designed.
With the assistance of the OIG statistician, we computed the 2001 overpayment
projection rate and compared our computed rate with the actual BAM projected rate.

In addition, we designed tests to determine whether overpayments occurred that BAM
could not identify. Specifically, 580 BAM cases were randomly selected from 6 of
the states we visited. State wage information was researched for all cases, and those
cases where wages occurred in the quarter in which an UI benefit was paid were
further researched with the assistance of BAM investigators. State BAM personnel
made actual overpayment determinations, and where applicable, statistical projections
were made to estimate the magnitude of the overpayments. Our statistical projections
in these six states were compared to the BAM projection within the category of
unreported earnings.

We also used linear regression to examine CY 2001 BAM estimations of unreported
earnings in 49 states, and determine whether any states had significant variances that
may indicate projections were understated. Lastly, we reviewed 10 significant
documented system complaints presented in the 1988 Westat Incorporated study to
determine whether management addressed these previously reported system concerns.
This study was an independent evaluation of BAM to validate that the system could
accurately project overpayment rates for the country.

BAM Information to Prevent Overpayments

Quality Control was reviewed to determine whether the Federal system used
detected overpayment information to address and correct known problems.



                                                                                29
Using our 5-year analysis of overpayment errors, we interviewed 23 current
and former Regional BAM Monitors to determine how improper payment
issues detected through BAM were handled. In addition to the interviews, we
examined the ETA database of State Service Quality Plans CAP and CIP
entries. We reviewed entries from 47 states to determine whether
overpayment issues were identified within the plans. We also assessed the
policies and practices of the national office to determine their involvement in
preventing overpayments. Specifically, we analyzed the impact of the UI
PERFORMS designation of overpayment information as a Tier II measure on
the nation’s overpayment problem. In addition, we reviewed all UIPLs for the
years 1999-2001 to determine the breadth and scope of national policies
impacting overpayments.

Program Improvements (Best Practices) to Reduce Overpayments

We performed a Best Practices analysis at state UI operations to determine whether
some state practices led to fewer overpayments. Using an attribute analysis,
overpayment projections were compared to the business practice of New Hire
database connectivity and usage. The estimation was made by taking statistically
projected outcomes for the six states where audit tests were performed and
developing a mathematical overpayment factor to represent the attribute prevalent at
the time of the audit. The overpayment factor was computed by dividing the
overpayment point estimate into the states total paid benefits for that year (CY2001).
This factor was then averaged by the number of states demonstrating the same
attribute. Attributes were grouped by red (not connected to their New Hire database),
yellow (connected with moderate usage), and green (connected with highly active
usage) factors. We then contacted all of the remaining states and DC (this work was
not performed for Puerto Rico) to determine whether they were connected to their
New Hire systems, and whether their usage was considered moderate or highly active.
We then analyzed this business practice in all 50 states and DC to estimate the
financial impact if states changed their business practice to mirror the states in the
audit with the best performance.

We evaluated Management Controls and Compliance with Laws and
Regulations specific to the objectives of this audit. This included controls
necessary to comply with BAM requirements such as case selection, case
review, quality assurance and accuracy of reporting. The objective of our
audit was not to provide assurance on all of ETA’s management controls or
compliance with all laws and regulations; accordingly, no such assurance or
opinion is given.

This audit was conducted in accordance with generally accepted government
auditing standards issued by the Comptroller General of the United States.
The primary time period of documentation used to perform this audit was CY
1997 to CY 2001 for BAM data, UIPLs, and State Service Quality Plans. The
audit was designed to focus on CY 2001 BAM data, however, New Hire



                                                                                  30
database connectivity and usage information covered CYs 2001 and 2003.
Audit fieldwork was performed from March 2002 to March 2003.




                                                                         31
                                                           Exhibit 1


             States Visited and Audit Tests Performed


                        Number of Cases Reviewed

Location     (Reperformance Test)          (Wage Match Test)

California       50                                 0

Michigan         50                                 94

Missouri         50                                 99

New Jersey       46                                 0

Ohio             47                                 97

Oklahoma         48                                 97

Tennessee        48                                 97

Washington       50                                 96


Totals           389                               580




                                                                       32
EXHIBIT 2




            33
34
35
36
2
3
4
5
6
7
